              U.S. Department of Energy
              Office of Inspector General




Special Report
Management Challenges at the
Department of Energy




DOE/IG-0580                                 December 2002
                    U. S. DEPARTMENT OF ENERGY
                         Washington, DC 20585

                              December 31, 2002




MEMORANDUM FOR THE SECRETARY

FROM:                    Gregory H. Friedman (Signed)
                         Inspector General

SUBJECT:                 INFORMATION: Special Report on "Management Challenges
                         at the Department of Energy"


BACKGROUND

At the request of Congressional leadership, the Office of Inspector General has, for the
past several years, identified what it considers to be the most significant management and
performance challenges facing the Department of Energy. This effort, which was
codified as part of the Reports Consolidation Act of 2000, is now done on an annual basis
and includes an assessment of the agency's progress in addressing each challenge area.
As in the past, the methodology employed by my office relies on recent and on-going
audit, inspection, and investigation work. The process places great emphasis on the
identification of those programs and operations with demonstrated performance problems
and those which are, in our judgment, inherently the most difficult to manage. While any
analysis of this sort is somewhat subjective, we believe that the result is a balanced,
comprehensive depiction of Departmentwide challenges.

The Office of Management and Budget, in 2001, issued the President's Management
Agenda. The Agenda included five government-wide initiatives for improving
management and performance that all federal agencies were to address: strategic
management of human capital; competitive sourcing; improved financial performance;
expanded electronic government; and, budget and performance integration. The
Department of Energy was also assigned responsibility for a specific initiative, to develop
and implement better research and development investment criteria. Where appropriate,
this report identifies the relationship between the Office of Inspector General's list of
management challenges and the initiatives in the President's Management Agenda.

                                        RESULTS

In our judgment, the following are the most serious challenges that the Department needs
to address in 2003 and beyond:

   •   Contract Administration
   •   Environmental Cleanup
   •   Information Technology Management
   •   National Security
   •   Performance Management
   •   Stockpile Stewardship
   •   Worker/Community Safety

Since our last report, the Department’s senior management has taken positive steps to
address a number of previously reported challenges. While these issues have been
deleted from the management challenge list, they are, nonetheless, complex subject areas
that will continue to require management’s attention and periodic assessment.

It should be noted that the Department, in its FY 2002 Performance and Accountability
Report, identifies a similar set of issues that impact the Department's ability to fulfill its
critical missions. In this regard, the Department and the Office of Inspector General will
continue to evaluate agency performance in an effort to improve programs and
operations, particularly as they relate to the management challenge areas identified in this
report.

Attachment

cc: Deputy Secretary
    Under Secretary for Energy, Science and Environment
    Acting Administrator, National Nuclear Security Administration
    Director, Office of Management, Budget and Evaluation/Chief Financial Officer
    Chief of Staff`
MANAGEMENT CHALLENGES AT THE DEPARTMENT OF ENERGY

TABLE OF
CONTENTS



               Overview

               Introduction ................................................................................ 1

               Conclusions and Observations ................................................. 1


               Management Challenges at the Department of Energy

               Challenge Summaries ................................................................ 3


               Appendices

               1. Calendar Year 2002 Reports and Ongoing Reviews .......... 17

               2. Crosswalk of Management Challenges ............................... 24

               3. Status of Previously Reported Management Challenges.... 25
OVERVIEW

INTRODUCTION      The Department of Energy (Department) is a multi-faceted agency
                  encompassing a broad range of national security and scientific activities
                  with an annual appropriation of about $21 billion. In conducting these
                  endeavors, the Department employs more than 115,000 federal and
                  contractor staff in 35 states and is organized into four business lines:
                  National Nuclear Security, Environmental Quality, Energy Resources,
                  and Science. Specific missions include ensuring that the Nation's
                  nuclear weapons stockpile is safe and reliable; environmental clean-up
                  at Department facilities and surrounding areas; fostering a secure and
                  reliable energy system; and, conducting world-class scientific research.
                  In the wake of the events of September 11, 2001, the Secretary has
                  charged each programmatic office with more sharply focusing its
                  efforts and activities on the Department's overarching mission to protect
                  and enhance national security.

                  In accordance with the Reports Consolidation Act of 2000, this report
                  sets forth the Office of Inspector General's (OIG) conclusions on the
                  most serious management challenges facing the Department. Our
                  conclusions are based on knowledge gained through the performance of
                  audits, inspections, and investigations of the Department and its
                  operations.


CONCLUSIONS AND   As of the end of Calendar Year 2002, the OIG had identified seven key
OBSERVATIONS      management challenge areas facing the Department. These represent
                  the most serious management and performance challenges that are
                  impacting the agency's ability to carry out its critical missions. Each of
                  these areas is briefly discussed in the body of the report:

                     •   Contract Administration
                     •   Environmental Cleanup
                     •   Information Technology Management
                     •   National Security
                     •   Performance Management
                     •   Stockpile Stewardship
                     •   Worker/Community Safety

                  Recently-issued OIG reports are used to illustrate key aspects of the
                  challenges. We have also included, as appropriate, areas of progress in
                  each area and briefly assessed the Department's actions in addressing




Page 1                                                                    Introduction/
                                                         Conclusions and Observations
         those challenges. Appendix 1 lists key OIG reports issued during the
         past year that are associated with each of the challenge areas.
         The list of challenges, which is presented alphabetically, differs
         somewhat from our previous lists. Some challenges have shifted focus
         due to the changing situations worldwide. The prevention of terrorism,
         for example, has brought a significant focus not only to the protection
         of nuclear weapons but also to the protection of materials that could be
         used to produce weapons of mass destruction. In addition, the report
         has combined and re-titled some areas to better capture the essence of
         the challenge. For example, Infrastructure and Asset Management and
         Security and Safety from last year's list were reorganized and re-named.
         Appendix 2 presents a crosswalk between the current list and the list we
         provided last year. In addition, Appendix 3 discusses the status of three
         management challenges reported in 2001, which are not a part of our
         2002 report.

         As we have stated in the past, many of the challenges represent
         difficult, and in some cases intractable, problems that will require a
         concerted effort over a long period of time. Others, such as
         Performance Management and Information Technology Management
         can be addressed more quickly through the implementation of effective
         administrative processes and systems.




                                                 Signed
                                       Office of Inspector General




Page 2                                         Conclusions and Observations
MANAGEMENT CHALLENGES AT THE DEPARTMENT OF ENERGY

Challenge Summaries   The following sections detail our observations regarding each challenge
                      area, including, where appropriate, Departmental efforts or
                      accomplishments that have come to our attention. In addition, we have
                      identified the relationship between these areas and those Departmental
                      initiatives that relate directly to The President's Management Agenda.

                                              Contract Administration

                      A significant portion of the Department's mission is accomplished
                      through contracts, with industrial, academic, and nonprofit institutions
                      operating the government-owned plants and laboratories under a
                      "management and operating" contractor relationship. These contracts,
                      with an annual value of about $14.8 billion, represent the largest share
                      of the Department's budget. Contract administration, which includes
                      project management, has been a longstanding challenge. Although the
                      Department has changed its contract management approach with
                      respect to its major facility contracts, as well as the overall management
                      of its procurement system, the Department continues to have problems
                      with contract management practices and difficulties in managing some
                      of its major projects, as illustrated below.

                      Concerns about the Department's ability to build new facilities or
                      upgrade existing systems have arisen due to cost overruns, schedule
                      slippages, and other project management problems. As reported in
                      Cost-Sharing at the Ashtabula Environmental Management Project
                      (DOE/IG-0558, June 2002), the Department did not evaluate cost-
                      sharing arrangements when entering into a remediation contract for the
                      Ashtabula Environmental Management Project. Had cost-sharing
                      provisions been included in the current contract, the Department could
                      have avoided about $25 million in unnecessary costs and fees.
                      Additionally, the Department could avoid about $34 million on future
                      contracts by requiring the contractor to pay its fair share of the cost to
                      clean up its plant and eliminating all fees.

                      During the past year, OIG reports have also disclosed challenges in the
                      use of procurement cards. Our report on the U.S. Department of
                      Energy's Purchase Card Program – Lessons Learned (IO1OP001,
                      February 26, 2002), disclosed a number of complex schemes by
                      contractor employees devised to facilitate the misuse of purchase cards.
                      Even when existing policies and procedures were present, they were not
                      always adequately enforced. For example, our report on the Sandia




Page 3                                                                 Challenge Summaries
         National Laboratories Procurement Card Program (WR-B-02-03,
         August 6, 2002), showed that Sandia had not enforced its existing
         policies and procedures nor did it have adequate controls over the
         approval of transactions. There were instances where Sandia
         procurement cardholders purchased restricted items, split purchases to
         avoid transaction limits, and allowed unauthorized users to make
         purchases. Sandia's internal auditors had identified problems with
         internal controls for administering the procurement card contract and
         program in 1998, but problems still remained in 2002.

         Based on ongoing work at Los Alamos National Laboratory, the OIG
         has observed a substantial degree of dysfunction in the Laboratory’s
         handling of property loss and theft. In fact, the OIG and other
         reviewers have identified significant weaknesses in internal controls
         over property and the use of purchase cards. We expect to issue reports
         on these matters in the near future.

         The Office of Management, Budget and Evaluation has an ongoing
         review of 32 of the Department's 67 locations that operated purchase
         card programs. The review has identified no instances of fraud, waste,
         or abuse. However, it did disclose areas where control procedures need
         to be strengthened or clarified to ensure that Departmental purchase
         card programs operate in a strong environment and to further limit our
         vulnerability to misuse.

         The Department reported it has initiated several actions to improve
         contract administration in 2002, such as:

         •   Reviewing its science laboratory management and operating
             contracts to develop innovative approaches and techniques for
             improving contractor performance and contract administration;

         •   Developing a model for improving the management and
             performance of its National Nuclear Security Administration
             (NNSA) contractors that identified key concepts like strengthening
             of performance-based management, attainment of fiscal efficiency,
             and restructuring of federal and contractor oversight and functions;

         •   Completing several assessments of its major site environmental
             management contracts that identified issues that contracting officers
             need to focus on to improve performance; and,




Page 4                                                   Challenge Summaries
         •   Implementing recommendations made by the National Research
             Council of the National Academy of Sciences on Departmentwide
             policies and procedures to improve project management
             deficiencies.

         In Fiscal Year (FY) 2003, the Department plans to conduct a
         benchmarking study of projects focusing on factors for success, and to
         establish a risk-based assessment process to review and approve
         projects in their conceptual design phase.

                                 Environmental Cleanup

         During the Cold War, the nuclear weapons complex generated large
         amounts of hazardous and radioactive wastes. The Department has the
         daunting task of clean-up at numerous contaminated facilities that
         supported nuclear weapons production activities. This effort is
         complicated by the fact that the clean-up processes it employs must
         protect the health of its workforce and citizens in the communities
         surrounding Department sites.

         The Department has made some significant strides in its remediation
         efforts. For example, it has put in place accelerated clean-up contracts
         for many of its sites. In addition, in 2002, the President recommended,
         and the Senate approved, Yucca Mountain as the site to establish a safe
         repository in which to store the nation's nuclear waste. The
         Administration asserts that the successful completion of the Yucca
         Mountain project will ensure that the United States has a safe and
         secure underground facility that will store nuclear waste in a manner
         that is protective of the environment and American citizens.

         However, the Department is at risk of not meeting its long-term cleanup
         objectives if it does not clearly define needs to meet mission
         requirements and develop comprehensive plans for each site. In an
         effort to make the program more effective and efficient, the Office of
         Environmental Management (EM) completed a "top-to-bottom"
         assessment of all aspects of its EM program. In the resulting report, A
         Review of the Environmental Management Program (February 4,
         2002), EM concluded that there was a systemic problem with the way it
         has conducted its activities. The underlying theme in the report was
         that the EM program has not been driven as a project with a completion
         mindset along with an appropriate sense of urgency. The emphasis was
         on managing risk rather than actually reducing risk to workers, the
         public, and the environment.


Page 5                                                  Challenge Summaries
         During the year, the OIG continued to identify problems with the way
         the EM program was implemented. For example, in October 2001, the
         Department changed its original plan for processing salt waste and
         announced that solvent extraction was the preferred treatment
         technology. Our report on Salt Processing Project at the Savannah
         River Site (DOE/IG-0565, August 27, 2002) found that direct disposal
         in grout technology posed less risk to on-site workers, the general
         public, and the environment than solvent extraction. The direct
         disposal alternative is also the least costly of the evaluated alternatives
         for treating salt waste.

         At the Ashtabula Environmental Project, we found that cleanup would
         not be completed as originally planned and that questionable costs of
         about $4.9 million had been billed by and reimbursed to the contractor.
         Specifically, our report on Remediation and Closure of the Ashtabula
         Environmental Management Project (DOE/IG-0541, January 15, 2002)
         disclosed that the cleanup effort might not be completed until 2012
         instead of 2003, extending the 10-year expected life of the project to
         19 years, resulting in a likely increase in project costs of over
         $60 million.

         Infrastructure issues also continue to present challenges to the
         Department as well as the EM program. During the years of nuclear
         weapons production, over 20,000 facilities were constructed that no
         longer serve a mission and have been identified as excess to the
         Department's needs. The cost of performing surveillance and
         maintenance on these facilities was estimated to exceed about $70
         million annually in FY 2001. Over time, these costs and the potential
         for negative impacts to worker safety and the environment will
         increase. In our report, Disposition of the Department's Excess
         Facilities (DOE/IG-0550, April 3, 2002), we found that the Department
         did not fully consider mission requirements, risk reduction, and costs
         when prioritizing facility disposition activities. The OIG also has an
         ongoing audit regarding the adequacy of EM's planning for its
         infrastructure needs.

                           Information Technology Management

         Congress passed the Clinger-Cohen Act of 1996 and the Government
         Management Information Security Act of 2000 (GISRA) to enhance the
         management and control of information technology (IT). Further, the




Page 6                                                    Challenge Summaries
         President's Management Agenda encourages the use of electronic
         commerce to make it simpler for citizens to receive high-quality
         services from the Federal government while reducing the cost of
         delivering those services.

         With an estimated $1.4 billion annual expenditure for IT, it is essential
         that the Department develop and implement an effective IT
         management investment and control process. Although the Department
         continues to integrate IT into all aspects of its management and
         administration of various missions, it has experienced problems in fully
         implementing the requirements of the Clinger-Cohen Act and GISRA.

         Information technology investment and development and cyber
         protection have suffered in the past from program management
         planning and execution weaknesses. For example, we found that the
         planned and ongoing nuclear materials accounting systems
         development activity was not always consistent with the Department's
         Corporate Systems Information Architecture. The Department
         maintains the Nuclear Materials Management Safeguards System
         (NMMSS), which comprises a major component of the Government's
         nuclear materials inventory accounting system, but also has over 50
         separate nuclear material tracking systems. Many of these systems are
         duplicative and inefficient. Our report, Nuclear Materials Accounting
         Systems Modernization Initiative (DOE/IG-0556, June 6, 2002),
         concluded that the Department had not adequately managed its
         activities to redesign or modernize its nuclear materials accounting
         systems.

         Similarly, we found that while the Department had taken a number of
         positive steps to improve its unclassified cyber security program, many
         of its critical information systems remained at risk. For example, we
         noted that the Department had not (1) consistently implemented a
         risk-based cyber security approach, (2) assured continuity of operations
         through adequate contingency and disaster recovery planning, (3)
         strengthened its incident response capability by reporting all computer
         incidents, (4) ensured that employees with significant security
         responsibilities had received adequate training, and (5) adequately
         addressed configuration management and access control problems. Our
         report, The Department's Unclassified Cyber Security Program 2002
         (DOE/IG-0567, September 9, 2002), concluded additional work in
         policy development and implementation is necessary to ensure that
         critical information technology resources are adequately protected.




Page 7                                                  Challenge Summaries
         Like most private sector and government organizations, the
         Department has an aggressive program to provide its Federal and
         contractor personnel with the ability to remotely access a number of
         unclassified information systems. While the benefits of such access
         are clear, there is a corresponding increase in certain risks, most
         importantly, the potential for unauthorized access to the Department's
         information systems. Our report on Remote Access to Unclassified
         Information System (DOE/IG-0568, September 13, 2002) pointed out
         that the majority of offices reviewed had not adequately protected
         information systems from unauthorized remote access. For example,
         over half of the offices had not: (1) considered the risk associated
         with remote access when developing cyber security protection plans;
         (2) developed specific guidance addressing remote access security
         requirements; and, (3) required the use of protective measures such as
         personal firewalls, up-to-date virus protection, and current systems
         software. The Department reported it has made some progress in the
         area of Information Technology. For example:

            •   The Chief Information Officer now directly reports to the
                Deputy Secretary and is the primary official for
                Departmentwide information management issues.

            •   The Department developed the Information Resources
                Management Strategic Plan that includes specific goals and
                performance measures targeted at the reform of IT
                management processes associated with the Clinger-Cohen
                Act.

            •   The Department is progressing in developing an Enterprise
                Architecture that will serve as a roadmap for guiding
                investment decisions and achieving systems integration
                throughout the Department.

            •   The Department instituted a Capital Planning and Investment
                Control to address previous deficiencies in IT investment and
                management.

            •   The Department upgraded its site cyber security protection
                through the expanded use of firewalls and intrusion detection
                software and stronger passwords.




Page 8                                                Challenge Summaries
         In FY 2003, the Department plans to publish the Cyber Security
         Performance Program that implements risk-based policies for the
         protection of cyber assets. The Department also plans to promulgate a
         set of cyber security manuals, which will lead to the establishment of
         Risk Management and Certification & Accreditation processes to
         support the Department's Cyber Security Management Program. In
         addition, future plans include issuing internal policy that will establish
         requirements for IT management throughout the Department and
         completing an acquisition framework. Plans also include issuing
         internal policy that will establish requirements for IT management
         throughout the Department and completing an acquisition framework.

         Although progress has been made in establishing management
         processes to control IT planning and investment, and cyber security, the
         Department's IT management challenge remains to effectively
         implement these processes to, among other things, avoid system
         duplication and to minimize system vulnerabilities.

                                     National Security

         While the deterrent provided by nuclear weapons has been, and
         continues to be, a key component of the Nation's security posture, the
         Department now faces a complex set of challenges related to defending
         against worldwide threats. These challenges, brought to the forefront
         by the events of September 11, 2001, now require the Department to
         consider evolving security threats and the need to identify and
         implement new security measures. The Department has been
         instrumental in the development of technologies designed to counter
         future terrorist acts, including systems to detect airborne biological
         agents, sensors to track missile launchers or other weaponry in a desert
         environment, and chemicals to decontaminate buildings, such as the
         anthrax-infected Hart Senate Office Building. However, audits and
         inspections conducted over the last year have shown that improvements
         can be made to better control foreign access to valuable material and
         information.

         Specifically, our audit on Accounting for Sealed Sources of Nuclear
         Material Provided to Foreign Countries (DOE/IG-0546, March 20,
         2002), determined that the Department and its predecessor agencies did
         not enforce requirements for reporting sealed source information and
         could not fully account for the sealed sources of nuclear material lent to




Page 9                                                    Challenge Summaries
          foreign countries. Because of concerns regarding the possible misuse
          of these radioactive sources, including the potential for the development
          of radiological dispersal weapons, recommendations were made to
          improve the reporting system and identify the location of the material in
          cooperation with the International Atomic Energy Agency.

          In addition to protecting sensitive materials, access to Department sites
          is critical to the security of the Nation. The Department has three
          nuclear weapons laboratories and many other multi-program
          laboratories that perform sensitive work on preserving the stockpile and
          countering terrorism at home and abroad. Our report, Personnel
          Security Clearances and Badge Access Controls at Department
          Headquarters (DOE/IG-0548, March 26, 2002), disclosed that process
          problems with the Department's clearance and badging controls could
          allow unauthorized individuals access to Department Headquarters.
          Personnel who had discontinued their employment with the Department
          had either not had their clearance terminated or had not returned their
          badges to the Department. While we found no instances of
          inappropriate access, these situations could have allowed unauthorized
          individuals easy entry to Department facilities. A similar audit is
          ongoing at selected Department field locations.

          In a similar vein, the OIG issued a report on the foreign visits and
          assignment program at two national laboratories. We found that the
          Department had not adequately controlled unclassified visits and
          assignments by foreign nationals. Each year the Department's national
          laboratories host thousands of visitors from around the world. These
          visits benefit both the Department and its international partners by
          providing a forum for the exchange of information, a path for open
          communications and the stimulation of ideas, and an opportunity for the
          enhancement of research. These visits, however, pose certain security
          risks. Specifically, as noted by the 2002 Hamre Commission Report,
          our adversaries might use unclassified activities — such as those taken
          by visitors and assignees — to gain access to classified activities.

          The creation of the Department of Homeland Security (DHS) also poses
          additional challenges to the Department. For example, several
          Department activities and organizations will become part of the new
          agency. The Department will need to plan for this transition in
          sufficient detail to ensure an uninterrupted focus on national security.
          Furthermore, the Department will need to establish and maintain




Page 10                                                  Challenge Summaries
          efficient, well-coordinated mechanisms for interacting with DHS on
          issues relating to terrorism and homeland security. We note, for
          example, that at least two national laboratories have already established
          homeland security organizations. It is not yet clear to us how these and
          other Departmental organizational components will interact with DHS.
          The Department must work to ensure that where its mission and
          capabilities intersect the mission and needs of DHS, bureaucratic
          inefficiencies are minimized and national security is not compromised.

                                 Performance Management

          The President's Management Agenda identified Budget and
          Performance Integration as a government-wide initiative and outlined a
          plan to provide a results-oriented management process for the Federal
          government. A primary focus of the President's plan is that funding
          allocations are based on the achievement of goals. In the past, the
          Department has been criticized for deficiencies that include: (1)
          performance measures that are not quantifiable, (2) performance
          measures that do not support key goals, and (3) underlying processes
          that are not results oriented. In response to this criticism, the
          Department created the Office of Program Analysis and Evaluation and
          is moving toward a five-year planning, programming budget and
          evaluation system, which is intended to better integrate improved
          performance measures with the budget. In addressing this issue, the
          Department needs to ensure that comprehensive metrics are in place
          and are used to manage ongoing programs and activities effectively. To
          illustrate, our report on Environmental Management Performance
          Measures (DOE/IG-0561, June 27, 2002) noted that although the Office
          of Environmental Management had developed a number of corporate
          and project-specific performance measures, these measures did not
          capture overall program results. Specifically, the measures did not
          cover the majority of cleanup projects or budgets, capture overall
          program performance, or address risk reduction attributes.

          In another report on the Synchrotron Radiation Light Sources at
          Lawrence Berkeley National Laboratory and Stanford Linear
          Accelerator Center (DOE/IG-0562, July 22, 2002), we found that the
          Office of Basic Energy Sciences had not established performance
          measures to evaluate the use of beam lines at its user facilities.
          Specifically, while beam lines at the Stanford facility were being fully
          used, those at Berkeley were not even though researchers with valid
          scientific projects had requested time to use the lines.




Page 11                                                   Challenge Summaries
          A recent report, Remote Treatment Facility (DOE/IG-0573, November
          5, 2002), disclosed that the Department had not taken a corporate
          approach and integrated all mission needs in the Remote Treatment
          Facility planning and design process. While the Department had
          established performance measures as required by the Government
          Performance and Results Act of 1993, such measures were not
          sufficient in scope and did not address the ultimate disposition of all
          site remote-handled solid waste.

          In FY 2002, the Department reported that it completed the following
          efforts:

          •   Issued new policy to provide consistent application of performance
              measurement principles;

          •   Established a formal training program to facilitate the development
              and reporting of quantifiable performance goals and measures in
              conjunction with the budget process;

          •   Implemented new performance tracking software to improve
              reporting and analysis capabilities and facilitate more useful
              information for decision making; and,

          •   Integrated performance plans with FY 2003 and FY 2004 budgets
              and utilized performance information to support its budget
              decisions.

          In FY 2003, the Department plans to issue an Annual Performance Plan
          that will show its progress in developing better goals and targets that
          are more results driven and outcome oriented. In addition, internal
          assessments will be conducted to identify ways to improve performance
          management practices. These actions are encouraging and responsive
          to establishing more meaningful performance metrics and better
          integrating performance results into budget decisions. The OIG will
          continue to monitor the Department's performance in this critically
          important area.

                                   Stockpile Stewardship

          The Department's plan for stockpile stewardship is one of the most
          complex, scientifically technical programs ever undertaken. The




Page 12                                                   Challenge Summaries
          Department is responsible for maintaining the safety, reliability, and
          performance of the aging nuclear weapons in the Nation's stockpile.
          Since the moratorium on underground testing of nuclear weapons, the
          Department has accomplished this responsibility through its Stockpile
          Stewardship Program. The Department is required to annually certify
          to the President that the nuclear weapons stockpile is, in fact, safe and
          reliable and that underground nuclear testing does not need to be
          resumed. Ultimately, the program's success is dependent upon
          developing an unprecedented set of scientific tools to better understand
          nuclear weapons, enhancing stockpile surveillance capabilities, and, in
          the process, extending the life of the weapons that comprise the
          stockpile.

          Deficiencies have been identified in surveillance tests of stockpiled
          nuclear weapons, a key component of the Stockpile Stewardship
          Program. Since 1996, the Department has not met certain milestones
          for surveillance testing and, in some cases, now faces a significant
          backlog. This backlog puts the Department at risk for not having
          critical information on the reliability of these weapons. Deficiencies
          have also been identified in conducting significant finding
          investigations to determine the cause and impact of problems identified
          by surveillance tests, and to recommend corrective actions.

          As part of the Strom Thurmond National Defense Authorization Act of
          1999, Congress created The Panel to Assess the Reliability, Safety, and
          Security of the United States Nuclear Stockpile to review and assess the
          Stockpile Stewardship Program and related activities. The Panel's
          FY 2001 report addressed five major areas that needed attention during
          FY 2002, and beyond. These were (1) new presidential guidance; (2) a
          capable and flexible weapons complex; (3) rigorous surveillance,
          assessment and certification processes; (4) test readiness; and, (5)
          decisive NNSA leadership and management. The Panel's March 2002
          report provided specific details in each of these areas. Some involve
          action beyond the direct control of the Department, but many can be
          addressed from within.

          During the past year, OIG reports have addressed difficulties that the
          Department has had in meeting this critical mission. For example, our
          audit of National Nuclear Security Administration's Test Readiness
          Program (DOE/IG-0566, September 9, 2002) disclosed that, based on
          the current status of available human and physical resources, the




Page 13                                                   Challenge Summaries
          Department's ability to conduct an underground nuclear test within
          established parameters was problematic. In addition, a report issued by
          the Nevada Operations Office, Enhanced Test Readiness Cost Study,
          concluded that the Department's ability to maintain a test readiness
          posture of 24 to 36 months is "at risk" at the currently planned funding
          level of $10 million per year. The conclusions in this report were
          consistent with the OIG's findings.

          In a similar vein, an audit of The Department of Energy's Pit
          Production Project (DOE/IG-0551, April 12, 2002) disclosed that the
          Department's ability to produce a certifiable pit in accordance with its
          performance plans is at risk. As of December 2001, over half of the
          approximately 40 nuclear manufacturing processes that will be used to
          produce pits were behind schedule or had been delayed. While Los
          Alamos asserted that the delays occurred because the original schedule
          was too aggressive, we identified deficiencies in the management
          control process that make the on-time delivery of a certifiable pit
          questionable.

          Last year, we reported on problems with the Department's stockpile
          surveillance testing and related significant finding investigations. This
          year, our audit on the Resolution of Significant Finding Investigation
          Recommendations (DOE/IG-0575, November 18, 2002) disclosed that
          while NNSA could account for the resolution of the 26 most serious
          significant finding investigation (SFI) recommendations related to
          problems affecting weapon safety, reliability, or performance, the status
          of 74 additional recommendations, each with a potential consequence
          for the surveillance program's operations and processes, was not
          tracked. We found that no action had been taken on 23 of the
          recommendations and that most were not assigned to any specific
          individual or organization for follow-up. NNSA did not have controls
          in place to ensure that such assignments were made and that follow-up
          actions were completed. In our view, the failure to track and resolve
          SFI recommendations, admittedly those that may have been determined
          to be of a lower risk and/or priority, has the potential to undermine the
          effectiveness of the Department's testing regime.

          In addition, our review on the Depleted Uranium Operations at the
          Y-12 National Security Complex (DOE/IG-0570, September 25, 2002)
          pointed out that although the Y-12 depleted uranium facility is currently
          able to manufacture components, NNSA cannot ensure the continued




Page 14                                                  Challenge Summaries
          reliability of national security processes at the site. Production
          equipment, in many cases, is outdated, damaged, or beyond repair.

          Finally, as is the case with most major Department programs, NNSA
          faces challenges with regard to repairing and replacing its deteriorating
          infrastructure. Although Congress has committed substantial funds to
          infrastructure improvements over the next 10 years, our work has led us
          to conclude that NNSA needs better planning and prioritization of its
          requirements to ensure that the additional funds, which may approach
          $2 billion, are used as effectively as possible.

                                Worker/Community Safety

          The Department performs a wide variety of work to carry out the many
          missions of the Department. With thousands of employees and the
          local communities to consider, safety is a key concern to the
          Department. Other agencies and or groups, such as State regulators, the
          Environmental Protection Agency, the Defense Nuclear Facilities
          Safety Board, and the Office of Independent Oversight and
          Performance Assurance also help the Department stay focused on the
          safety of its operations and facilities. OIG reports have identified
          problems with safety operations or plans at several of the Department's
          facilities.

          Our report on National Nuclear Security Administration's Test
          Readiness Program (DOE/IG-0566, September 9, 2002) disclosed
          Nevada had not fully updated its nuclear explosives procedures and
          activities to incorporate enhanced nuclear safety requirements issued in
          fiscal year 2001. According to Nevada, it could take from 12 months to
          18 months to complete the remaining six areas master studies. Without
          these studies completed, it could affect the ability to resume
          underground testing should the President determine that such tests are
          needed.

          Likewise, the ongoing review of the National Nuclear Security
          Administration's Nuclear Explosive Safety Study Program disclosed
          that required comprehensive Nuclear Explosive Safety studies at Pantex
          have been delayed for a majority of active nuclear weapons types in the
          Nation's stockpile. While revalidation studies have been conducted for
          these weapon types, most were late, causing, in some cases, work
          delays.




Page 15                                                  Challenge Summaries
          A priority of the Defense Nuclear Facilities Safety Board (Board) has
          been safety at the Department's Pantex site. For example, in 2000, the
          Board reported a problem with the Department's software quality
          assurance standards and the Department was to prepare a corrective
          action plan to address the deficiencies. In 2002, the Board sent the
          Department a number of recommendations focusing on shoring up the
          level and availability of safety expertise made available to the Pantex
          Plant. The Board also issued a recommendation on the quality
          assurance for safety-related software because after two years of effort to
          produce a corrective action plan, the Department's attempts now appear
          to be stalled.

          Our report on Nuclear Safety Rules at Ashtabula (DOE/IG-0576,
          November 29, 2002), identified issues relating to nuclear safety.
          Specifically, that radiological work at the Metals Plant and commercial
          work with Department equipment were not covered by a license of
          nuclear safety procedures. In addition, during our ongoing Inspection
          of Explosives Safety at Selected Department Sites, we concluded that
          improvements could be made in the areas of explosives, fire, and
          lighting safety.




Page 16
Appendix 1

                        Calendar Year 2002 Reports and Ongoing Reviews

    Contract Administration

    Issued Reports:

          Audit Report on "Procurement Administration at Brookhaven National Laboratory"
          (CR-B-02-02, August 22, 2002)

          Audit Report on "Sandia National Laboratories Procurement Card Program" (WR-B-02-03,
          August 6, 2002)

          Audit Report on "Privatization of Safety Management Services at the Savannah River Site"
          (DOE/IG-0559, June 18, 2002)

          Audit Report on "Cost Sharing at the Ashtabula Environmental Management Project" (DOE/
          IG-0558, June 7, 2002)

          Audit Report on "Alternative Fuels Use at the Department of Energy" (DOE/IG-0553, May 2,
          2002)

          Audit Report on "Funds Received from Termination of the Silo 3 Subcontract at the Fernald
          Environmental Management Project" (ER-L-02-02, April 15, 2002)

          Inspection Report on “Inspection of Licensing of Trade Secrets by Sandia National
          Laboratories" (DOE/IG-0547, March 22, 2002)

          Inspection Report on "Department of Energy's Purchase Card Programs – Lessons
          Learned" (IO1OP001, February 26, 2002)

          Audit Report on "Grant Administration at the Oakland Operations Office" (WR-B-02-02,
          January 15, 2002)

          Audit Report on "Advanced Radioisotope Power Systems Program" (DOE/IG-0540, January
          14, 2002)

          Audit Report on "Passive Magnetic Resonance Anomaly Mapping at Environmental
          Management Sites" (DOE/IG-0539, January 11, 2002)




Page 17                                           Calendar Year 2002 Reports and Ongoing Reviews
Appendix 1 (Continued)


    Ongoing Reviews:

          •   Sensitive Equipment Accountability
          •   Local Government Use of Nuclear Waste Funds
          •   Administration of Financial Instruments by Laboratories
          •   Research and Development Investment Criteria for Fossil Energy
          •   Weatherization Assistance Program
          •   Department's Agreement for Utility Services at East Tennessee Technology Park
          •   Reindustrialization at the East Tennessee Technology Park
          •   Facility Maintenance at the Hanford Site
          •   Disposal of Surplus/Excess Personal Property at the Nevada Test Site
          •   Beryllium Operations at Y-12
          •   Albuquerque Operations Office Transportation Procurement
          •   Oak Ridge National Laboratory Subcontracting
          •   NNSA Funding and Leasing Issues
          •   Savannah River Operations Office Emergency Response and Law
               Enforcement Related Grants
          •   Bonneville Power Marketing Administration's Kaiser Remarketing Funds


    Information Technology Management

    Issued Reports

          Audit Report on "Business Management Information System" (DOE/IG-0572, November 4,
          2002)

          Evaluation Report on "The Federal Energy Regulatory Commission's Unclassified Cyber
          Security Program 2002" (DOE/IG-0569, September 13, 2002)

          Audit Report on "Remote Access to Unclassified Information Systems" (DOE/IG-0568,
          September 13, 2002)

          Evaluation Report on "The Department's Unclassified Cyber Security Program 2002"
          (DOE/IG-0567, September 9, 2002)

          Audit Report on "Nuclear Materials Accounting Systems Modernization Initiative"
          (DOE/IG-0556, June 6, 2002)

          Audit Report on "Cyber-Related Critical Infrastructure Identification and Protection
          Measures" (DOE/IG-0545, March 20, 2002)



Page 18                                            Calendar Year 2002 Reports and Ongoing Reviews
Appendix 1 (Continued)


    Ongoing Reviews

          •   Information Systems Planning, Implementation, and Security Practices at the Power
                Marketing Administrations
          •   Wireless Communications


    Environmental Stewardship

    Issued Reports

          Audit Report on "Planned Characterization Capability at the Waste Isolation Pilot Plant"
          (DOE/IG-0577, December 18, 2002)

          Inspection Report on "Inspection of Nuclear Safety Rules at the Ashtabula Environmental
          Management Project" (DOE/IG-0576, November 26, 2002)

          Audit Report on "Remote Treatment Facility" (DOE/IG-0573, November 5, 2002)

          Audit Report on "Idaho Settlement Agreement Activities" (DOE/IG-0571, October 9, 2002)

          Audit Report on "Salt Processing Project at the Savannah River Site" (DOE/IG-0565, August
          27, 2002)

          Audit Report on "Advanced Vitrification System" (DOE/IG-0564, August 20, 2002)

          Audit Report on "Closure of the Fernald Environmental Management Project"
          (DOE/IG-0555, June 5, 2002)

          Audit Report on "The Plutonium Stabilization and Packaging System at the Rocky Flats
          Environmental Technology Site" (DOE/IG-0554, May 13, 2002)

          Audit Report on "Completion of K Basins Milestones" (DOE/IG-0552, April 15, 2002)

          Audit Report on "Disposition of the Department's Excess Facilities" (DOE/IG-0550,
          April 3, 2002)

          Audit Report on "Idaho Operations Office Planned Construction of a Waste Vitrification
          Facility" (DOE/IG-0549, April 1, 2002)




Page 19                                            Calendar Year 2002 Reports and Ongoing Reviews
Appendix 1 (Continued)


          Audit Report on "Department of Energy's Strategy for Disposal of Plutonium"
          (ER-L-02-01, February 7, 2002)

          Audit Report on "Soil Washing at the Ashtabula Environmental Management Project"
          (DOE/IG-0542, January 28, 2002)

          Audit Report on "Remediation and Closure of Ashtabula Environmental Management
          Project" (DOE/IG-0541, January 15, 2002)

    Ongoing Reviews

          •   Advanced Mixed Waste Treatment Project at the Idaho National Engineering
                and Environmental Laboratory
          •   Planning for Waste Treatment Plant at Hanford
          •   Disposal of WIPP's Remote-Handled TRU Waste
          •   Treatment of Mixed Incinerable Wastes
          •   Waste Stabilization Facility at Savannah River
          •   Local Government Use of Nuclear Waste Funds
          •   In-House Energy Management
          •   Plutonium Finishing Plant at the Hanford Site


    National Security

    Issued Reports

          Audit Report on "Calutron Isotope Production Capabilities" (DOE/IG-0574, November 14,
          2002)

          Inspection Report on "Inspection of the Security of Spent Nuclear Fuel at the West Valley
          Demonstration Project" (DOE/IG-0563, July 23, 2002)

          Inspection Report on "Inspection of Department of Energy Fresh Pursuit Policies and
          Practices" (DOE/IG-0557, June 6, 2002)

          Audit Report on "Personnel Security Clearances and Badge Access Controls - Department of
          Energy Headquarters" (DOE/IG-0548, March 25, 2002)

          Audit Report on "Accounting for Sealed Sources of Nuclear Material Provided to Foreign
          Countries" (DOE/IG–0546, March 20, 2002)




Page 20                                           Calendar Year 2002 Reports and Ongoing Reviews
Appendix 1 (Continued)


          Inspection Report on "Inspection of the Accountability and Control of Sealed Radioactive
          Sources at Selected Department of Energy Sites" (DOE/IG–0544, March 12, 2002)

          Audit Report on " The Department's Unclassified Foreign Visitor and Assignment
          Program" (DOE/IG-0579, December 23, 2002)

    Ongoing Reviews

          •   Implementation of the Indications, Warning, Analysis, and Reporting
          •   Department's Integrated Security System
          •   Personnel Security Clearances and Badge Access Controls at Selected Field
                 Locations
          •   Selected Aspects of Security Force Administration at the Department
          •   Power Marketing Administration's Infrastructure Protection
          •   Special Nuclear Materials Received from Foreign Countries
          •   Security Issues
          •   Force on Force Recommendations
          •   Transportation Security at the National Nuclear Security Administration – Savannah
                River Site
          •   Department of Energy Counterterrorism Coordination
          •   Hazardous/Toxic Chemical Security
          •   Firearms Internal Controls
          •   FY 2002 4th Quarter Intelligence Oversight
          •   Export Control of Savannah River Operations Office Grant/Work-for-Others
                Information
          •   Explosive Security
          •   Security of Spent Nuclear Fuel Shipments
          •   Review of International Memorandums of Understanding
          •   Department of Energy Aircraft Security
          •   Department of Energy Aircraft Support of Joint Technical Operations Team
          •   Sensitive Information On Department of Energy Websites
          •   Safeguards and Security at Los Alamos National Laboratory
          •   Laptop Internal Controls
          •   Department Nuclear Weapons Incident Response Program
          •   Controls Over Expenditures at the Office of Transportation Safety




Page 21                                           Calendar Year 2002 Reports and Ongoing Reviews
Appendix 1 (Continued)


    Performance Management

    Issued Reports

          Audit Report on "Implementation of Sound Project Management Practices in the Office of
          Science" (OAS-L-03-02, November 4, 2002)

          Audit of "State of Nevada Yucca Mountain Oversight Funds for Fiscal Year 2001"
          (CR-C-02-01, August 22, 2002)

          Audit Report on "Synchrotron Radiation Light Sources at Lawrence Berkeley National
          Laboratory and Stanford Linear Accelerator Center" (DOE/IG-0562, July 22, 2002)

          Audit Report on "Environmental Management Performance Measures" (DOE/IG-0561, June
          27, 2002)

          Inspection Report on "Inspection of Training Issues at the Rocky Flats Field
          Office" (SO2IS020, March 22, 2002)

          Audit Report on "Relativistic Heavy Ion Collider Project" (DOE/IG-0543, March 6, 2002)

    Ongoing Reviews

          •   Science Infrastructure
          •   Funding Mission Development Activity at Idaho National Engineering and
                Environmental Laboratory
          •   Waste Receiving and Processing Facility at Hanford
          •   Department of Energy's Spent Nuclear Fuel Lead Laboratory
          •   Planning and Budgeting for NNSA Infrastructure


    Stockpile Stewardship

    Issued Reports

          Audit Report on "Resolution of Significant Finding Investigation Recommendations"
          (DOE/IG-0575, November 18, 2002)

          Audit Report on "Depleted Uranium Operations at the Y-12 National Security Complex"
          (DOE/IG-0570, September 25, 2002)




Page 22                                           Calendar Year 2002 Reports and Ongoing Reviews
Appendix 1 (Continued)


          Audit Report on "National Nuclear Security Administration's Test Readiness Program"
          (DOE/IG-0566, September 9, 2002)

          Audit Report on "The Department of Energy's Tritium Extraction Facility"
          (DOE/IG-0560, June 24, 2002)

          Audit Report on "The Department of Energy's Pit Production Project" (DOE/IG-0551, April 12,
          2002)

    Ongoing Reviews

          •   Initiatives for Nuclear Nonproliferation
          •   NNSA's Planning, Programming, and Budgeting System Process and Structure
          •   Dual Axis Radiographic Hydrodynamic Test Facility
          •   Dual Axis Radiographic Hydrodynamic Test Facility Commissioning
          •   National Ignition Facility
          •   Kansas City Plant Operations
          •   Nuclear Facilities
          •   W80 Refurbishment
          •   Department of Energy's Safety Analysis Requirements
          •   Department's Management of Beryllium Inventories
          •   Plutonium-238 Production Capabilities


    Worker/Community Safety

    Ongoing Reviews

          •   National Nuclear Security Administration's Nuclear Explosives Safety Study Program
          •   Memorandums of Agreements at Selected Department of Energy Facilities
          •   Nuclear Safety Rules at Ashtabula
          •   Los Alamos National Laboratory Reportable Incident Reports
          •   Explosives Safety
          •   Memorandums of Agreement at Brookhaven National Laboratory




Page 23                                          Calendar Year 2002 Reports and Ongoing Reviews
Appendix 2

                               Crosswalk of Management Challenges



                                         Continuing Challenges

    Contract Administration
    Information Technology Management
    Performance Management
    Stockpile Stewardship



                                          Restated Challenges

                     FY 2002                                          FY 2003

          Environmental Standards and Stewardship            Environmental Stewardship
          Infrastructure and Asset Management *              Stockpile Stewardship/Contract
                                                                Administration
          Security and Safety **                             National Security and
                                                                Worker/Community Safety

    ∗  Infrastructure and Asset Management was split and restated in Stockpile Stewardship and
       Contract Administration, respectively.
    ** Security and Safety was split and restated in National Security and Worker/Community Safety,
       respectively.



                                          Previous Challenges

    Energy Supply
    Human Capital
    Research and Development Investment




Page 24                                                     Crosswalk of Management Challenges
Appendix 3

                   Status of Previously Reported Management Challenges

    The Department has taken steps to address three previously reported OIG management challenges
    and a number of the President's management initiatives. These actions came about as a result of
    strategic planning and goal setting, management commitment, and concentrated efforts by many
    Department and contractor personnel. Through these efforts, progress has been made in the areas
    of Human Capital, Better Research and Development Investment Criteria, and Energy Supply.
    While these areas still represent daunting issues that the Department must plan for and deal with on
    a continual basis, we noted that management had put into place a number of initiatives designed to
    address problematic aspects of these challenge areas. We recognize, however, that these areas will
    continue to challenge the Department for many years to come and plan to revisit these areas in the
    future.

    Human Capital

    Since 1995, the Department has experienced a 27 percent reduction in its workforce. To address
    the impacts of this dramatic downsizing, a comprehensive human capital management strategy,
    Human Capital Update: Accelerating Workforce Restructuring and Addressing Skill Gaps in
    Mission Critical Positions, was developed to serve as a baseline for workforce demographics for
    future change. In addition, several other initiatives have been implemented, such as revitalizing
    Senior Executive Service mentoring and candidate development programs; expanding use of
    automated human resource systems; implementing new intern and leadership programs; and, using
    available personnel tools and flexibilities (including buyouts and early retirement) to rebuild its
    workforce.

    Ongoing OIG work has reinforced the conclusion that progress is being made. For example, our
    review of Recruitment and Retention Efforts for Federal Employees has shown that the Department
    has initiated programs to attract prospective employees and develop current staff. We did note,
    however, that corrective actions from prior reports are still not complete. Our audit of Recruitment
    and Retention at the Los Alamos and Lawrence Livermore National Laboratories has found that
    both laboratories have addressed NNSA's recruitment and retention program objectives to develop
    and deploy an aggressive, multi-laboratory strategy and a comprehensive plan to ensure that critical
    skills, knowledge, and technical capabilities were available to the Nuclear Weapons Program. It is
    still too early, however, to measure the strategy's effectiveness.

    While progress is being made, we have also noted that human capital issues still represent hurdles
    that management must successfully negotiate to meet mission requirements. For example, our audit
    of Management of the Stockpile Surveillance Program's Significant Finding Investigations (DOE/
    IG-0535, December 18, 2001), cited a shortage of personnel that could affect the ability of the
    NNSA to resume underground testing within specified timeframes. Personnel shortages were also
    identified in our report of National Nuclear Security Administration's Test Readiness Program



Page 25                                     Status of Previously Reported Management Challenges
Appendix 3 (Continued)

    (DOE/IG-0566, September 9, 2002). The Department agreed with the recommendations made in
    both reports and noted it was already working on initiatives or actions to mitigate the effect of
    resource shortages.

                           Better Research and Development Investment Criteria

    Given the magnitude of the Department's research and development activities, which are funded at
    approximately $3.3 billion annually, the Administration has noted that significant care needs to be
    taken in the prioritization and management of these activities. In the last year, as directed in the
    President's Management Agenda, the Department and the Office of Management and Budget
    (OMB) developed, then worked to refine, investment criteria to assist in allocation decisions for
    applied research and development investments. This criteria was then used as the basis for the
    Department's FY 2003 budget request for energy technology programs.

    Once the criteria has been further refined, OMB plans to apply it to all federal departments and
    applicable agencies with applied research and development programs in time for the formulation of
    the FY 2004 budget. There are also plans to develop separate criteria for evaluating basic research
    in the near future.

                                               Energy Supply

    The Department is taking action to shift its energy research work toward high-risk, longer-range
    activities with the potential for large payoffs, including energy science research in the physical,
    biological, and environmental areas. In this regard, the National Energy Policy established five key
    national goals: modernizing conservation efforts; modernizing our energy infrastructure; increasing
    energy supplies; accelerating the protection and improvement of the environment; and, increasing
    our Nation's energy security. To address these goals, resources have been increased to develop
    technology to make electricity generation and energy use more efficient. Another Departmental
    program is working to develop more energy efficient and alternatively fueled vehicles capable of
    reducing or eliminating the Nation's dependence on foreign oil. The Department also supports
    wind, solar, biomass, hydropower, and geothermal energy research and development projects to
    find ways to increase domestic energy supplies. Further, the Congress is working on national
    energy legislation that could affect energy supplies of the future.

    The Office of Inspector General believes that the Department cannot unilaterally improve the
    energy supply situation. Consequently, we are not separately reporting this challenge for FY 2003.
    Factors that could affect the Department in achieving its goals in the Energy Supply area include
    the market and consumer adoption of new technologies developed, environmental technologies, the
    energy industry's profitability, access to capital, and the undertaking of steps necessary to make the
    energy system less vulnerable.




Page 26                                      Status of Previously Reported Management Challenges
                                                                              IG Report No.: DOE/IG-0580

                                    CUSTOMER RESPONSE FORM


The Office of Inspector General has a continuing interest in improving the usefulness of its products. We
wish to make our reports as responsive as possible to our customers' requirements, and, therefore, ask that
you consider sharing your thoughts with us. On the back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please include answers to the following questions if they are
applicable to you:

1. What additional background information about the selection, scheduling, scope, or procedures of the
   audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included in this
   report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message more
   clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed in this
   report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any questions
about your comments.

Name _____________________________             Date __________________________

Telephone _________________________            Organization ____________________

When you have completed this form, you may telefax it to the Office of Inspector General at (202) 586-
0948, or you may mail it to:

                                     Office of Inspector General (IG-1)
                                           Department of Energy
                                          Washington, DC 20585

                                        ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                            following address:


                  U.S. Department of Energy, Office of Inspector General, Home Page
                                       http://www.ig.doe.gov

                    Your comments would be appreciated and can be provided on the
                           Customer Response Form attached to the report.
